Mem
  morandum from
              m the Office of th
                               he Inspector Ge
                                             eneral



Jan
  nuary 30, 20
             013

Jan
  net C. Herrin
              n, WT 7A-K

REEQUEST FOR MANAGEEMENT DECCISION – AU
                                      UDIT 2012-14567 – BUIL
                                                           LDING AND
                                                                   D
INF
  FRASTRUCTTURE FAILU
                    URE RISKS


Atta
   ached is the
              e subject fina
                           al report for your
                                         y    review and manage    ement decission. You arre
res
  sponsible forr determining
                           g the necess  sary actions to take in re
                                                                  esponse to o our findings.
Ple
  ease advise us of your management
                           m             t decision wiithin 60 dayss from the da
                                                                               ate of this re
                                                                                            eport.

Info
   ormation con
              ntained in th
                          his report ma ay be subjecct to public disclosure. P
                                                                             Please advisse
us of any sensitive informa
                          ation in this report
                                        r      that yo
                                                     ou recomme   end be withh
                                                                             held.

If you
   y have any  y questions or
                            o wish to discuss our fin
                                                    ndings, plea
                                                               ase contact m me at
(8665) 633-74500 or Lisa H. Hammer, Diirector, Operrational Auddits, at 865-6
                                                                            633-7342.
We e appreciate the courtesyy and coopeeration receivved from your staff durin
                                                                             ng the audit..




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

SJWW:DBS
Atta
   achment
cc (Attachmentt):
      Peyton T. Hairston, Jr.,
                           J WT 7B-K
                                   K
      Joseph J. Hoagland, WT 7C-K
      Jon E. Hoolztrager, WTT 3C-K
      William D.
              D Johnson, WT W 7B-K
      Lisa A. McKinney,
              M           EB
                           B 3E-C
               W Moore, ET 4C-K
      Richard W.
      Wayne L.. Poppe, LP 3A-C
      Emily J. Reynolds,
               R          OCP 1L-NST
      Bruce S. Schofield, BR
                           B 4A-C
      William C.
              C Threlkeld, WT 3B-K
      Robert B.. Wells, WT 9B-K
      Andrea L. Williams, WT
                           W 9B-K
      OIG File No. 2012-14 4567
        
 


                                     Audit Report
 
Office
      of the Inspector General                                  

                                     To the Executive Vice
                                     President and Chief      
                                     Administrative Officer,
                                     Administrative Services  
 

 

 

 


BUILDING AND
 

 

INFRASTRUCTURE
 


FAILURE RISKS 
 


 




 

 
 
 
Audit Team                                      Audit 2012-14567
 
Sylvia J. Whitehouse                            January 30, 2013
Scott M. Norris



                                  
Office of the Inspector General                               Audit Report




ABBREVIATIONS
CPP                        Challenged Properties Program
ERM                        Enterprise Risk Management
FAM                        Facilities Asset Management
FAP                        Facilities Asset Preservation
FCI                        Facilities Condition Index
FM                         Facilities Management
FPP                        Facilities Programs and Projects
FY                         Fiscal Year
MS                         Muscle Shoals
TVA                        Tennessee Valley Authority




Audit 2012-14567
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY ..................................... 2

FINDINGS ......................................................................................................... 4
    TVA RISK EXPOSURE FROM BUILDING FAILURES IS ELEVATED ........... 4

    FAP PROGRAM PROCESSES COULD BE IMPROVED ............................. 10

RECOMMENDATIONS ................................................................................ 14

TVA MANAGEMENT’S COMMENTS AND OUR EVALUATION ....... 15


APPENDIX
MEMORANDUM DATED JANUARY 16, 2013, FROM JANET C. HERRIN TO
ROBERT E. MARTIN




Audit 2012-14567
                                      Aud
                                        dit 2012-14567 – Building a
                                                                  and Infras
                                                                           structure
                                                      Failu
                                                          ure Risks
                                                                  s
                                                 EXECUTIV VE SUMM MARY

Tennessee
T              Valley
               V      Authhority’s (TVA A) Facilitiess Managem   ment (FM) b   business unnit is
part of the Administrativ
            A              ve Services  s strategic bbusiness unit and is re    esponsible for
managing
m           TV VA’s facilities portfolio
                                       o and provid ding service  es across T  TVA such a as
building maintenance and  a grounds     s and prope  erty manag  gement. Within FM,
Facilities
F          Pro ograms and  d Projects manages
                                        m          effforts for facility renovations, upg grades,
major
m       repairrs, energy efficiency,
                          e            sustainabilit
                                       s            ty, and othe  er facilities’ needs. Thhese
efforts includde TVA’s Facilities Ass   set Preservvation (FAP   P) Program, which wass
designed “to o ensure co  ore facility re
                                        elated asse ets are main  ntained in a condition to
satisfy their intended operational capabilities
                                        c            .”i The FAP  P team is re  esponsible for
gathering as  sset informa ation, identifying deficiiencies, reccommendin      ng corrective
actions, andd implementtation plann     ning of approved proje   ects.

TVA’s
T      facilitiies asset po
                          ortfolio includes over 3  34 million ssquare feet of gross sp pace
in
 n about 3,44 46 structurees, and a small numbe     er of these properties are not in u use.
From
F     2009 to t 2011, FM M identified 19 underuttilized properties. Two     o of these
properties, former
             f        coal plants, were decomm    missioned in  n 2011.ii A third property,
part of TVA’s Muscle Shoals
                         S        reserrvation, is b
                                                   being mitiga ated under an extensivve
re
 edevelopme   ent project,, which includes the November 2012 TVA B         Board of
Directors
D         appproval of th he possible sale of 1,0  000 acres o of the Musclle Shoals
property. In addition, TVA
                         T     establisshed the C Challenged P   Properties Program (C  CPP)
in
 n March 2012 to develop strategie     es for prope er handling g of underuttilized or va
                                                                                        acant
properties.

Because
B          of the importaance of prop per mainten nance to th he safe, efficcient, and
effective opeeration of assets,
                        a        we initiated thiss audit to evvaluate TVA  A’s efforts tto
id
 dentify and mitigate rissks associa ated with its buildings a and infrastrructure. Ass of
July 2011, TVA’s
             T      Enterrprise Risk Manageme     ent identifie
                                                              ed the risk o
                                                                          of building aand
in
 nfrastructure failures among
                         a       otheer safety riskks and the FAP Program as the
primary strattegy to mitigate these risks. Thiss audit was undertaken to evalua        ate
TVA’s
T       risk mitigation
             m          sttrategy and identify oppportunities for reducin ng risks,
in
 ncluding risk exposure  es from underutilized p properties, tto acceptab  ble levels.
Specifically,
S              our audit objective
                         o         wa as to determmine if FM adequatelyy designed the
FAP
F     Program m to identiffy and mitig
                                     gate risks off building and infrastru ucture failurres
and whetherr the FAP Program
                         P         opperates effectively as d designed.

In
 n summary, our audit disclosed
                         d           FM’s
                                     F     FAP PProgram is a  adequately designed tto
id
 dentify and mitigate thee risks of building and d infrastructture failuress, and FM’ss
processes fo  or remediatting identifie
                                      ed risks are
                                                 e reasonably effective. However,
we
w found TV   VA’s risk ex
                        xposure from  m building ffailures is e
                                                              elevated be ecause the
id
 dentified risks exclude underutiliz zed propertiies, and FA AP funding h  has not beeen
                                                            
i
     TVA-SPP-28  8.5, Asset Pres
                               servation, Rev. 0001, effective
                                                             e 04/15/2011, §
                                                                           §2.0 Scope.
ii
     The propertie
                 es were decom mmissioned while FM was parrt of the formerr Power System
                                                                                       m Operations
     organization..
                                                                                                      Page i
                    Aud
                      dit 2012-14567 – Building a
                                                and Infras
                                                         structure
                                    Failu
                                        ure Risks
                                                s
                               EXECUTIV VE SUMM MARY

adequate to address th
                     he risks in th
                                  he long term
                                             m. We alsoo identified opportunitiies
to
 o improve some
           s    FAP Program
                     P          an
                                 nd related FFM processses.

   The FAP  P Program contributes
                           c             to risk redu
                                                    uction by mmitigating soome of the
    worst building conditions in TV   VA’s asset p  portfolio. A
                                                               Although the e FAP Prog    gram
    has addrressed man    ny failing buuilding cond ditions, the historical F
                                                                            FAP budgett has
    not been  n sufficient to
                           t effectivelly reduce T TVA’s overa  all building m
                                                                             maintenancce
    backlog. From fisca    al year 2008 through 2   2012, FAP funding ave    eraged
    $24.4 million per ye  ear. During the same p     period, addditional facillities-related
                                                                                           d
    projects; covering a variety of maintenancce for base       eline work, ssafety, energy
    programs   s, and majo or modificattions; avera aged $14.4 million perr year.
    Compare   ed to industtry benchmarks, which     h indicate mmaintenance of TVA’s
    facilities portfolio sh
                          hould range e between $   $87 million to $174 milllion per year,
    TVA’s av  verage nong  generation repairs and   d maintena  ance funding  g of $39 miillion
    per year falls short ofo minimum  m industry ta argets by $ $48 million pper year. A  As a
    result, TV VA mitigatioon efforts do not provid  de overall sstewardship p that could  d
    reduce deferred
              d         maaintenance backlogs and extend building life      e cycles.
    Hence, TVAT     has a high
                           h    level of
                                      o risk in the e long term that buildinngs may
    substantially deterio  orate or fail before theyy can be re emediated.
   TVA risk exposures  s from building failuress go beyond   d the scope e of TVA’s F FAP
    Program. Underutillized properties owned      d by TVA pose risks o  of liabilities ffrom
    potential contamina ation or com mpromises tto public sa  afety. Sincee CPP was
    formed, lead
             l     responnsibility for this program has been   n uncertain
                                                                         n as is appa  arent
    from the lack of property inform  mation reco orded since 2011. Alth  hough TVA   A
    mitigatedd three underutilized properties
                                     p           in
                                                  n the last 2 years, rem
                                                                        maining
    propertie
            es could detteriorate to an unusab    ble, unsafe, or unrecovverable
    condition
            n. For exam mple, two TVA-owned
                                     T              sites in No
                                                              orth Alabamma were
    reported as dilapidaated and likely subject to breache    es or misusse. Because
    these prooperties couuld become   e dangerou us or eyesores, TVA rissks hazards
    to public safety or fu
                         urther dama   age to publlic image. S Sale of sevven
    underutilized properrties could realize an e   estimated $$13 million in gross
    proceeds s, which could offset re  emediation and dispossal costs. A process
    owner is needed to advance th     he work deffined underr CPP, a prrogram thatt will
    be neede ed more strrategically asa TVA red uces future   e reliance o
                                                                         on coal
    generatioon.
   The FAP  P Program delivers
                         d       an effective prrocess for rremediatingg identified
    risks; howwever, somme processe  es could be
                                               e strengthen ned to imprrove progra am
    efficiencyy and effectiveness. Based
                                     B     on in
                                               nterviews w with various TVA perso  onnel
    and surv vey results, we identifie
                                     ed many goood FAP Prrogram attriibutes, as w  well
    as conce erns about the
                         t program   m. TVA perrsonnel were mostly ccomplimenta     ary
    of the FAAP Program m and descrribed a goo od process ffor evaluatiing the highhest
    priorities and addressing criticaal needs wiithin the mo
                                                           oney allotte
                                                                      ed. There w  were

                                                                                         P
                                                                                         Page ii
                    Aud
                      dit 2012-14567 – Building a
                                                and Infras
                                                         structure
                                    Failu
                                        ure Risks
                                                s
                               EXECUTIV VE SUMM MARY

    high leve
            els of satisfa
                         action among plant representativves with work quality frrom
             ndows, recoated ceilin
    roofs, win                    ngs, elevatoor upgradess, and repa
                                                                   aving projeccts.
   TVA pers sonnel alsoo identified criticisms
                                      c          a
                                                 and frustratiions with FA  AP, such as
    the lack of
              o informatiion on FAP  P Program b boundaries and difficulties with
    oversightt of contrac
                        ctor activitie
                                     es working o on FAP pro    ojects and ppost-installa
                                                                                        ation
    issues. We
             W noted im  mprovemen    nts could bee made in p   program processes an    nd
    use of tools related to sharing of lessons learned, fo    ollow-up on projects
    scoped byb FM, proje ect tracking g, and infor mation included in faccilities asset
    and projeect records. Although the majoritty of FAP p      projects aree completed d
    within the
             e scheduled d timeframe  e, about 1 iin 4 FAP prrojects in prrogress or
    complete ed in FY 2012 did not have actua    al start dates and over one-half off the
    projects did not include a priorritization rannking. Accurate and ccomplete
    records are
             a needed   d to properly y track projeect statisticcs and supp port project
    selection
            n. In additio
                        on, the FM asset portfo   olio applica ation, Tririga
                                                                            a, contains
    data erroors and inaddequate access contro    ols and hass not been ffully deployyed
    for use in
             n FM. Adeq  quate security measurres are nee      eded to redu uce the riskk of
    comprom mise to TVA A’s facilities asset portffolio.

We
W recomm   mend TVA’s Executive Vice Presid    dent and Chief Adminiistrative Offficer,
Administrativ
A            ve Services
                       s, take actio
                                   ons to: (1) determine the level off risk
exposures TVA
            T    can accept from continued
                                   c          bbuilding dete erioration aand provide e
adequate prrogram fund ding where possible; (2  2) identify a process o  owner or cro oss-
 unctional te
fu          eam to identify, managge, and mitig gate underrutilized pro  operties
according too CPP guideelines; (3) improve pro ogram communication       ns to better
define FAP Program bo  oundaries and
                                   a update and coordinate with ssites where
projects are scheduled or ongoing  g; (4) levera
                                               age or deve  elop tools too centralizee
           mation, proje
asset inform           ect planningg and prioriitization, faccilities cond
                                                                         ditions, andd
 essons learrned; and (5
le                     5) obtain the resourcess necessarry to comple      ete Tririga
deployment and addres  ss weaknes  sses in the database.

In
 n response to our drafft report, TV
                                   VA manage ment agree    ed with our findings an
                                                                                 nd
provided commments, which are inc  cluded in thhis report. SSee the Ap
                                                                     ppendix for
TVA’s
T      compplete respon nse. We ag gree with TV VA’s plans,, which are important ffor
addressing some
            s      of the
                        e issues ide
                                   entified in o
                                               our report. However, T TVA
managemen
m                                  de specific tasks and a timeline fo
            nt’s plans do not includ                                  or completing
corrective ac
            ctions, whicch are neceessary for eeffectively a
                                                           addressing our
re
 ecommendations.




                                                                                       P
                                                                                       Page iii
Office of the Inspector General                                                               Audit Report


BACKGROUND
Tennessee Valley Authority’s (TVA) Facilities Management (FM) business unit is
part of the Administrative Services strategic business unit and is responsible for
managing TVA’s facilities portfolio and providing services across TVA such as
building maintenance and grounds and property management. Within FM,
Facilities Programs and Projects (FPP) manages efforts for facility renovations,
upgrades, major repairs, energy efficiency, sustainability, and other facilities’
needs. These efforts include TVA’s Facilities Asset Preservation (FAP) Program,
which was designed “to ensure core facility related assets are maintained in a
condition to satisfy their intended operational capabilities.”1 The FAP “team is
responsible for gathering asset information, identifying deficiencies,
recommending corrective action, and implementing planning of approved
projects.”2 FAP is intended for facility-related assets identified for TVA’s long-
term needs and not assets directly involved with power generation, transmission,
flood control, or navigation.3

TVA’s facilities portfolio includes over 34 million square feet of gross space
identified in about 3,446 structures as of September 5, 2012. The facilities
portfolio does not include square foot estimates for about 391 TVA buildings such
as switch houses, combustion turbine plants, small offices, warehouses, storage
buildings, and public-use structures. The structures without square foot estimates
total about 11 percent of TVA’s facilities asset portfolio.

TVA’s facilities portfolio also includes some properties that are not in use. From
2001 to 2011, FM identified 19 underutilized properties. Two of these properties,
former coal plants in Bowling Green, Kentucky, and at the Watts Bar site in
Tennessee, were decommissioned in 2011.4 A third property, part of TVA’s
Muscle Shoals (MS) reservation, is being mitigated under an extensive
redevelopment project. In November 2012, the TVA Board of Directors approved
the possible sale of 1,000 acres of the MS property included in the
redevelopment project. In addition, TVA established the Challenged Properties
Program (CPP) in March 2012 to develop strategies for proper handling of
underutilized or vacant properties within TVA and to consider options for reuse,
disposal, or retention for risk mitigation or demolition among other activities.

In a 2012 historical assets survey, TVA obtained assessments of 44 sites with
possible historic structures to support Cultural Compliance initiatives. These
assessments contain updated property information that could be useful for many


                                                            
1
     TVA-SPP-28.5, Asset Preservation, Rev. 0001, effective 04/15/2011, §2.0 Scope.
2
     Ibid, §3.1.3 TVA FAP Program Team.
3
     One exception to the FAP scope falls under the subprogram Coatings and Corrosion Control to provide
     protective coatings on assets with corrosion issues including plant and process equipment such as
     transmission towers, hydro intake gates, and precipitator steel.
4
     The properties were decommissioned while FM was part of the former Power System Operations
     organization.
Audit 2012-14567                                                                                   Page 1
Office of the Inspector General                                              Audit Report


purposes including general building conditions, types of construction and
materials used, detailed descriptions, and photographs.

The FAP workgroup prepares an annual master plan to identify project priorities
over a 5-year period and longer. Projects are identified in each of the five FAP
subprograms including:

   Building Envelope, such as roofs, windows, and siding.
   Building Systems, such as elevators, lighting, and heat and air-conditioning
    systems.
   Architectural Systems, such as walls, floors, and ceilings.
   Roads, Parking, and Grounds, such as paved areas.
   Coatings and Corrosion Control for plant and process equipment.

Projects are ranked by mission importance, observed condition, and potential
impacts. Asset importance ratings range from high to low depending on the
severity of disruption anticipated from asset failure, the potential for serious
accidents, and consequences of regulatory noncompliance. Observed asset
condition factors include age and amount of usage, life expectancy, level of
preventive maintenance, and existing environmental conditions. Potential
impacts are scored for health and safety, ability to conduct business, number of
people, environment, and TVA public image. Projects are then selected from the
prioritized list for the annual plan within the limits of the FAP Program budget. In
addition to FAP projects, FM manages and tracks facilities maintenance projects
to address safety, energy efficiency, baseline maintenance, and major building
modifications.

As of July 2011, TVA’s Enterprise Risk Management (ERM) listed safety risks as
a “medium” risk level. Within the broader safety risks, ERM defined the risk of
building and infrastructure failures as “Backlog of projects to repair/replace facility
related assets results in risks to transmission/generation assets and
employee/contractor safety. Some buildings are over 60 years old and
numerous building systems are at the end of their life.” Emerging issues
included lighting, wall failures, elevators, roofing, and siding. ERM identified the
FAP Program as the primary strategy to mitigate these risks.

OBJECTIVES, SCOPE, AND METHODOLOGY
Because of the importance of proper maintenance to the safe, efficient, and
effective operation of assets, we initiated this audit to evaluate TVA’s efforts to
identify and mitigate risks associated with its buildings and infrastructure. This
audit was undertaken to evaluate TVA’s risk mitigation strategy and identify
opportunities for reducing risks, including risk exposures from underutilized
properties, to acceptable levels. Specifically, our audit objective was to
determine if FM adequately designed the FAP Program to identify and mitigate
Audit 2012-14567                                                                  Page 2
Office of the Inspector General                                             Audit Report


risks of building and infrastructure failures and whether the FAP Program
operates effectively as designed. To achieve our objective, we:

   Obtained an understanding of the FAP Program by reviewing TVA-SPP-28.5,
    Asset Preservation, and interviewing the FAP staff.
   Obtained an understanding of CPP by reviewing TVA-SPP-16.10, Challenged
    Properties Program, and interviewing TVA staff in FM and Economic
    Development.
   Interviewed business unit representatives assigned to participate in FAP
    planning.
   Reviewed the FAP Program FY 2012 Master Plan and FM projects cost
    history.
   Conducted a survey of Operations business units to gauge FAP Program
    successes.
   Selected a nonstatistical sample of sites to visit where we could observe
    mitigation effectiveness.
   Interviewed plant managers and maintenance supervisors during site visits.
   Conducted limited reviews of project details in FM’s project tracking
    application, Projects Module.
   Reviewed data on buildings and structures from TVA’s asset portfolio.
   Researched industry best practices and benchmarks related to deferred
    building maintenance, investing in infrastructure, fiscal exposure from
    maintenance backlogs, and asset condition metrics.

Our survey of Operations groups was sent to 88 individuals representing
Generation plants (Coal, Gas, and River Operations), nuclear sites, and
Transmission Service Centers. We requested responses to 12 questions related
to FAP projects and building maintenance concerns. After receiving
22 responses, we concluded this low response rate (25 percent) could not be
relied on to represent conditions across the TVA fleet. Instead, we utilized the
information provided as anecdotal evidence of FAP Program results and
suggestions for program improvement.

Our criteria for selecting sites to visit was to include sites (1) where FAP projects
were ongoing, completed, or planned; and (2) from each of the major operational
organizations, including Generation (Coal and River Operations), Nuclear Power
Group, Energy Delivery, and TVA corporate. During our audit, we visited two
coal plants, seven hydro plants, one nuclear site, two Transmission Service
Centers, a substation, one corporate office location, and TVA’s MS reservation.
Due to the nature of our sampling methodology, the results of our sampling work
could not be projected to the entire population.



Audit 2012-14567                                                                 Page 3
Office of the Inspector General                                           Audit Report


We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

FINDINGS
In general, we found FM’s FAP Program is adequately designed to identify and
mitigate the risks of building and infrastructure failures, and FM’s processes for
remediating identified risks are reasonably effective. However, we did find TVA’s
risk exposure from building failures is elevated because the identified risks
exclude underutilized properties, and FAP funding has not been adequate to
address the risks in the long term. In addition, we identified opportunities to
improve some FAP Program and related FM processes.

TVA RISK EXPOSURE FROM BUILDING FAILURES IS ELEVATED
Although the FAP Program has addressed numerous failing and poor building
conditions, the historical FAP budget has not been sufficient to effectively reduce
TVA’s overall building maintenance backlog to a sustainable level. As
maintenance is deferred for longer periods of time and buildings continue to age,
conditions further deteriorate and require more resources to restore facilities to
good condition.

The FAP Program contributes to risk reduction by mitigating some of the worst
building conditions in TVA’s asset portfolio. For example, masonry walls failed
in 2007 at two coal plants (stairwells at Allen and control room at Johnsonville)
posing serious safety issues. FAP projects repaired these walls using
contingency funds targeting “emergent” issues. From 2007 to 2010, FAP
projects repaired walls at three other coal plants (Gallatin, Paradise, and
Shawnee) and four hydro plants (Fort Loudon, Fontana, Guntersville, and
Pickwick) to prevent further collapses. Costs of these efforts exceeded
$1 million. FAP staff stated similar repairs were made at Cherokee, Douglas,
Kentucky, and Watts Bar Hydro Plants; and wall repairs are planned at Wilson
Hydro Plant for fiscal year (FY) 2013.

From FY 2008 to 2012, FAP Program costs averaged approximately
$24.4 million per year. During this period, about two-thirds of the FAP Program
effort has focused on TVA’s oldest building assets supporting Coal, Gas, and
River Operations, as shown in Figure 1 on the following page. Costs for facilities
projects in addition to FAP averaged $14.4 million per year for the same 5-year
period including about $5 million per year funded by other strategic business
units. Collectively, TVA’s facilities-related projects average $39 million per year.


Audit 2012-14567                                                               Page 4
Office
O      of the Insp
                 pector Generall                                                                      Audit R
                                                                                                            Report



                                          FAAP Projeccts By Orgganization
                                                     ort (Costs 2008‐2012)
                                        Levvel of Effo
                                                                     Corpo
                                                                         orate &
                                                                    Muscle
                                                                         e Shoals
                                                         Nuclea
                                                              ar 8%      6
                                                                         6%

                                 Energ gy                                   Valley-W
                                                                                   Wide
                               Delivery 10%                                      9%




                                  Riverr                                C
                                                                        Coal & Gas
                                Operatio
                                       ons                              O
                                                                        Operations
                                  26%%                                     41%




                                                                                                     Figure
                                                                                                          e1

However,
H             industry benc chmarks ind dicate budg gets for maaintenance a  and repair o of
fa
 acilities sho ould target 2 to 4 perce ent of portfo
                                                    olio replaceement value  e. At the lo
                                                                                        ow
end of this ra  ange, some  etimes calleed the “catcch up” stage e, maintena ance backlo ogs
can be main    ntained, andd further deeterioration is abated. At the high   h end of the
                                                                                        e
 ange, backllogs are red
ra                          duced with the goal off exceeding   g expected asset life
cyycles. This  s level of eff
                           ffort ensures buildings are assetss in the porttfolio and do   o
not become liabilities. In other wo    ords, a facilities portfollio of TVA’ss size shoulld be
maintained
m               at
                a a target range
                            r       betw
                                       ween $87 an  nd $174 million per ye  ear.5 Therefore,
average TVA     A annual faacilities maintenance fu  unding fallss short of m
                                                                            minimum
in
 ndustry targ  gets by $48 million perr year. Bassed on histo    oric funding
                                                                            g levels,
TVA
T      facilities maintena ance efforts fall into a low range o of investme ent that parttially
addresses th    he current maintenanc
                            m           ce backlog but does not provide o    overall
maintenance
m               e stewardship that cou  uld prevent increases in maintena    ance needss
and addition   ns to the baacklog. FPP  P managerss agreed th  hat improvin  ng the mateerial
condition of facilities inv volves a 2.55 to 3.5 perrcent investment in op  perations an nd
                                                            
5
     Based on an estimate of co osts to replace TVA’s facilitiess asset portfolio
                                                                                o, we calculate
                                                                                              ed the 2 to 4 pe
                                                                                                             ercent
     target range using 33.9 milllion square fee
                                               et of gross buildding area, increeased by 11 peercent to allow for
     undetermined square footage in existing TVAT    buildings, and an averag  ge constructionn cost of $116 p
                                                                                                             per
     square foot based
                  b      on RS Means
                                M       industry standards. De  epending on the factors used, the target ran nge could
     be significantly higher than our estimate.
Audit
A     2012-1456
              67                                                                                           P
                                                                                                           Page 5
Office of the Inspector General                                               Audit Report


maintenance. By not meeting the lowest recommended spending level, FM does
not address the deferred maintenance backlog, the number of projects will
continuously increase, and FM cannot extend useful lives of assets included in
the maintenance backlog. Maintenance funding at TVA’s current low levels can
also strain baseline maintenance work and increase day-to-day costs of
operations.

FAP Program spending over the last 5 years totaled approximately $122 million
and was funded at 69 percent for operations and maintenance projects and
31 percent for capital improvements. Figure 2 provides historical trends by
subprogram for the last 5 years.


                                Facilities Asset Preservation Total Program Spend
                                                       2008‐2012
                  $30,000
                                                                              $27,490
                                  $25,421   $22,475       $22,985   $23,416
                  $25,000


                  $20,000


                  $15,000


                  $10,000


                   $5,000


                      ($000s)
                         $‐
                                   2008       2009          2010     2011      2012
   Roads, Parking, & Grounds       $758      $1,145        $2,205   $2,062    $2,596
   Architectural Systems           $5,059    $3,359        $4,218   $4,327    $4,765
   Building Envelope               $4,342    $4,041        $4,737   $4,706    $6,059
   Building Systems                $5,207    $3,698        $3,677   $4,390    $5,278
   Coatings                       $10,054    $10,233       $8,147   $7,931    $8,792

                                                                                 Figure 2

The FAP Master Plan for FY 2012 estimated approximately $491 million was
needed to address FAP projects through FY 2017 and beyond. Funding needs
were projected to increase annually over the planning period and by FY 2017,
the funding need was projected to be $48 million, which is 73 percent higher than
the planned FY 2012 funding level of $28 million. Figure 3 shows the trend of
project estimates predicted for the FAP Program through FY 2017.


Audit 2012-14567                                                                    Page 6
Office
O      of the Insp
                 pector Generall                                                                  Audit R
                                                                                                        Report




                                                                                                Figure 3

For
F purpose    es of updating the FAP  P Master Pla an and sele ecting FY 2 2013 projects,
FPP
F     staff de
             etermined almost
                          a      95 percent of p rojects iden ntified for planned FAP  P
work
w     addres sses facilitie
                          es assets or compone nts in failed  d or poor co ondition.
By
B constantlly addressin    ng only the
                                     e worst cond ditions, FAPP Program efforts add   dress
a portion of current maintenance backlogs
                                      b          bu
                                                  ut do not keeep pace w  with potentiaal
ra
 ates of conttinued or ad dditional bu
                                     uilding dete rioration. AAs a result, TVA has a
high level off risk in the long term that
                                      t    building
                                                  gs will subsstantially deeteriorate or
 ail before th
fa           hey can be remediated   d.

By
B comparis   son, a recen nt U.S. Deppartment off Labor, Offfice of Inspeector General,
 eport6 show
re           wed that thee Job Corps  s manages 125 centerrs nationwid   de with an
average age  e of 42 yearrs and the oldest
                                      o     beingg over 80 yyears old. T To maintainn
 hese centerrs, the Job Corps rece
th                                   eived approoximately $1 108 million per year inn
appropriated d funds fromm 2009 thro ough 2011. Although some portio     on of this
fu
 unding, alon ng with otheer legislated funding, w
                                                 was used to o acquire laand and
construct ne ew centers,7 the Job Corps
                                     C     reportted that the
                                                            e majority of the FY 20 010
fu
 unding was used to im  mprove facility conditionns at its centers by redducing the
backlog of re epairs on existing builddings and ddisposing oof surplus properties.
The
T U.S. De    epartment ofo Labor, Offfice of Insp
                                                pector Gene  eral, also re
                                                                         eported thee
Job Corps deferred
             d         maaintenance backlog ass of FY 2011 was $202      2 million.
TVA
T      funding
             g has been about two-thirds less to maintain   n and repairr a much la arger
fa
 acilities ass
             set portfolio with deferrred maintennance that is 2.4 timess greater.


                                                            
6
     U. S. Department of Labor, Office of Inspe  ector General, Report 26-13-002-03-370 isssued Decembe  er 7,
     2012.
7
     The Job Corps opened one   e new center in 2011 and plan  ns to open two new centers in
                                                                                           n 2013. The am mount
     of $250 millio
                  on was appropriated under th  he American Re ecovery and Reeinvestment Acct for Job Corp
                                                                                                         ps
     construction and rehabilitattion projects fro
                                                 om FY 2009 thrrough FY 20133.
Audit
A     2012-1456
              67                                                                                        P
                                                                                                        Page 7
Office of the Inspector General                                            Audit Report


During our site visits, we observed deteriorating conditions at several sites, some
of which were not included in the FAP Master Plan either because the needs
were not identified or because other priorities were higher risk. For example,
photograph 1 below shows issues with exterior glass block walls at a hydro plant
(Melton Hill near Lenoir City, Tennessee). Many blocks are broken, so they leak
when it rains and freeze and break in the cold. In addition, photograph 2 on the
following page illustrates substantial corrosion of an exterior steel roof plate at a
neighboring hydro plant (Fort Loudon). These types of issues, when known,
have to be prioritized within budget limits and in light of other buildings problems,
such as leaking roofs, which need more immediate attention. As a result, repairs
of the less urgent issues may be deferred indefinitely unless the program obtains
the resources to support a more strategic and proactive approach to facilities
maintenance.




                                                                 Photograph 1




Audit 2012-14567                                                                Page 8
Office of the Inspector General                                                                          Audit Report




                                                                                           Photograph 2

Underutilized Properties Pose Additional Risks
TVA risk exposures from building failures go beyond the scope of TVA’s FAP
Program. Underutilized properties owned by TVA pose additional risks of
liabilities from potential contamination or compromises to public safety. Due to
TVA’s 2012 reorganization and personnel changes, responsibility for CPP since
its formation has been uncertain as is apparent from the lack of property
information recorded since 2011. We gained no assurance that all TVA
underutilized properties have been identified or plans are being made for proper
handling in accordance with CPP guidelines. TVA has mitigated three
underutilized properties, and we observed mitigation progress at two of those
sites. The former Watts Bar Fossil Plant site was cleared and returned to what
appeared to be greenfield status,8 although we did not verify completion of
environmental remediation activities, such as the proper disposal of asbestos
and lead-contaminated materials. In addition, TVA has made significant
progress under the MS redevelopment project in remediating dilapidated
conditions at the former Chemical Plant and Environmental Research Center
properties on the MS reservation and preparing for possible disposal of some of
the property. This property was described as the biggest and worst of TVA’s
challenged properties.

We were informed of two other sites in North Alabama that are significantly
deteriorated and could pose liabilities to TVA. Specifically, two small properties
called the Decatur Maintenance Base and the United States Coast Guard site

                                                            
8
     Greenfield status refers to a parcel of land that after industrial use is, in principle, restored to the
     conditions existing before the construction of the plant.
Audit 2012-14567                                                                                                Page 9
Office of the Inspector General                                                                  Audit Report


were reported as dilapidated, likely subject to breaches or misuse, containing
possible environmental contaminants, and having no feasible possibility of being
returned to functional use. Other abandoned properties could deteriorate to an
unusable, unsafe, or unrecoverable condition possibly becoming dangerous or
eyesores and risking hazards to public safety or further damage to TVA’s public
image. According to estimates FM obtained when identifying underutilized
properties, sale of seven properties could realize an estimated $13 million or
more in gross proceeds, which could offset the costs of remediation, disposal, or
other cleanup activities. A process owner is needed to advance the work defined
under CPP. These efforts will become increasingly important as TVA moves to a
more balanced operational portfolio and reduces reliance on coal generation.
FPP staff expressed specific concern regarding responsibilities for repairs of coal
plants after operations cease.

FAP PROGRAM PROCESSES COULD BE IMPROVED
The FAP Program delivers an effective process for remediating identified risks;
however, some processes could be strengthened to improve program efficiency
and effectiveness. Based on interviews with various TVA personnel and survey
results, we identified many good FAP Program attributes, as well as concerns
about the program. Further, we noted improvements could be made related to
sharing of lessons learned, follow-up on projects scoped by FM, information
included in the asset and project records, project tracking, and the Tririga
application.

Compliments and Concerns from TVA Personnel
From our site visits, interviews, and program survey, we identified many good
FAP Program attributes, and TVA personnel were complimentary of the FAP
Program. Specifically, the program is a good process to evaluate the highest
priorities, identify the critical needs, and work with the money allotted.
In addition, FAP personnel have a “good handle” on program scope, particularly
roofs and roads, and do what they say they will do while addressing Operations’
biggest facilities maintenance needs. Some personnel stated pre-project
meetings were beneficial for the projects to leverage work at other sites,
coordinate with plant and contract partners, establish project expectations,
consider environmental needs, allow for lead times to obtain plant access, and
arrange for plant involvement. Survey responses indicated an 87 percent
satisfaction rate with FAP projects, among those who responded,9 stating FAP
projects worked well overall; and FAP staff provided good scheduling,
coordination, communication, pre-project meetings, and work quality. There
were high levels of satisfaction among plant representatives with work quality
from roofs, windows, recoated ceilings, console replacements, elevator
upgrades, repaving, and virtually every FAP subprogram.


                                                            
9
     As previously described in our report, the response rate to our survey was low and did not represent
     views across the operating business units but provided evidence of FAP Program results.
Audit 2012-14567                                                                                     Page 10
Office of the Inspector General                                                           Audit Report


A recent positive program initiative is to shift to a Facilities Asset Management
(FAM) strategy and possibly incorporating a facilities condition index (FCI) on
asset health. The FAM strategy adopts a broader proactive view of facilities
management and incorporates risk-based decisions. Accordingly, FPP staff
outlined a multistep plan that begins with standardizing on portfolio square
footage, establishing new metrics, integrating processes, collaborating with other
FM groups, and executing a strategy for managing risk. The FCI metric is in line
with industry standards and measures deferred maintenance needs against
replacement value. The FCI could complement other measures used currently to
prioritize assets for allocation of budgeted maintenance and repairs.

In addition, we observed professionalism among FAP staff, with a broad
knowledge base and awareness of facilities conditions, and dedication to
delivering high-quality work. The FAP team made efforts to coordinate work with
other FM project managers and under the existing program, the team handles a
heavy workload. Operations personnel added FAP has the right people doing the
right upgrades, and FAP staff provide good working relationships with the plants.

Although mainly complimentary, TVA personnel interviewed or surveyed also
identified some criticisms and frustrations with FAP. For example, respondents
claimed there is “never enough money” requiring FAP to work first on the worst
conditions. More funding is needed to address the many concerns and emergent
issues and keep assets in shape like they should. Some individuals stated the
Operations organizations do not understand FAP Program boundaries, which are
confusing and not well defined or, in some cases, how the process works to
obtain Facilities projects. Plants want to know where their responsibilities end
and FM’s responsibilities begin; they need to know who owns what for repairs
and improvements. Operations organizations also want to provide more input on
FAP priorities and participate in the process for scoring and project selection.
Oversight of contractors to work on facility issues can be a burden for sites that
are understaffed and already have a full plate of responsibilities. A lot of areas
require instruction for contractors such as training, safety, and daily job briefings.
In some cases, specific issues required more attention. In particular, some
survey respondents identified the need for more upfront planning on
requirements, detail scope, and environmental concerns, and more
communication on work progress.

Other Improvements can be Made
We determined FAP staff informally discusses lessons learned from project
experience at project review meetings, but this information is not documented or
collected for sharing. The Office of the Inspector has previously reported10
lessons learned should be captured during all project phases to prevent repeated
issues and improve subsequent project performance. Some TVA organizations
use a lessons-learned database to document and facilitate information sharing, a
feature which could benefit FAP and FM project execution. In response to our
previous audit, TVA may develop an agency-wide tool for documenting lessons
                                                            
10
     Audit 2011-13781, Lessons Learned at Lagoon Creek Combined Cycle Plant, issued September 21, 2012.
Audit 2012-14567                                                                              Page 11
Office of the Inspector General                                          Audit Report


learned. Sharing information also impacted non-FAP projects. For example,
at one site we visited, post-installation problems needed more attention and
remediating. A lesson from a project experience (an energy efficiency effort, not
a FAP project) was identified when the contractor did not properly dispose of
used lighting fixtures and bulbs. Pre-construction instructions needed to cover in
more detail the responsibilities for cleanup, waste labeling and disposal, and
what type of lighting would be needed. Well-documented lessons learned may
have alerted the project manager to this need.

In addition to the FAP Program, we identified concerns related to other FM
projects. Specifically, at two sites we visited, follow-up was needed on projects
that FM scoped with work cost estimates, but the physical work was not
performed. Some of these projects may require funding in addition to FM efforts.
Additional communication with sites where proposals for work are submitted
could close gaps in expectations and ensure initiatives important to sites receive
needed support. Increased communication with business units could also reduce
concerns when business decisions are impacted by the availability or condition of
facilities.

Tools and Resources Used can be Improved
FAP relies on a variety of assessment activities to update asset conditions.
We noted, in particular, the formal assessments conducted for key subprograms
over roofs, elevators, and bridges. FAP contracts for assessment services
related to roofs and elevators and stores assessment results in individual files
and databases. In addition, FAP staff includes two civil engineers who regularly
inspect and report on conditions of TVA’s bridges. Use of these professional
services provides reliable and current information on the specific assets included.
FAP also collects facility condition updates from site visits and project
walkdowns, informal communications with other FM staff and site personnel, and
Dam Safety Inspection Reports on faulty road conditions. The 2012 historical
assets survey could also provide updated information on building conditions.

However, the results of these assessments and informal communications were not
being added to asset records and were not available to other personnel who could
benefit from the information such as asset owners and FM personnel with other
maintenance responsibilities. Use of a central repository to collect information on
asset conditions, including assessment results, could facilitate information sharing
and provide records archival to support FAP and other FM efforts.

FAP Project Tracking
We reviewed the projects and data in the FM Projects Module and determined
the majority of FAP projects were completed within the expected project duration.
For the 760 FAP projects with a status of “Closed Out” or “Completed Work –
In Service” during the time period of FY 2007 through FY 2012, 560 of these FAP
projects, or approximately 74 percent, were completed in a timely manner or
within the number of days from scheduled start date to scheduled finish date.
We did note, however, some date fields within Projects Module were not

Audit 2012-14567                                                            Page 12
Office of the Inspector General                                           Audit Report


populated preventing us from determining the timeliness of those projects.
Specifically, out of 184 FAP projects that were either in progress or completed
during FY 2012, actual project start dates were missing in 46, or about 1 in 4
projects. Actual dates are part of the project record that should be kept current in
order to provide accurate project statistics.

We also identified some opportunities to consider for improvement of project
tracking. More specifically, we noted about one-half of the FY 2012 FAP projects
did not include a prioritization ranking. In addition, some projects lacked details
on project scope, progress, and other comments. Since project notes are used
to document project budget approvals, use and approval of change requests,
project updates, such as comments on progress, decisions, and challenges, and
project control reviews, including project prioritization in project records could
provide an audit trail to the FAP Master Plan and support the rationale for project
selection.

FM Facilities Asset Portfolio Repository Needs Support
To support FM strategic plans, FM is migrating building information to TVA’s
facilities asset portfolio application, Tririga. This information is also needed to
support the new FAM strategy mentioned above which, according to plans, will
begin with standardizing on square footage. To accomplish this goal, FM must
have a reliable, complete, and accurate asset inventory. Although initially
implemented in 2009, Tririga has not been fully deployed and does not currently
provide the accuracy needed in a facilities portfolio.

At the time of our audit, FM had one full-time resource assigned to support
Tririga, and deployment for use in FM had not been completed. Significant
progress had been made on application functionality along with plans to
implement a Human Resources/Tririga interface. The Tririga database contains
data merged from the energy management group and the previous FM database.
However, concerns about the data include possible duplicate records and
missing square footage because, according to one source, “the baseline
information was gathered over several years by multiple individuals resulting in
inconsistencies and inaccuracies.” As described in the Background section of
this report, the facilities portfolio has no square footage for about 11 percent of
the known building assets. In addition to data concerns, the Tririga application
provided no access control to allow a view-only role without permissions to edit
data. This condition violates basic security standards over access control and is
particularly important when an application has multiple users and functions.
Without appropriate security measures, TVA risks compromise of the information
being stored for the entire facilities asset portfolio.




Audit 2012-14567                                                              Page 13
Office of the Inspector General                                             Audit Report


RECOMMENDATIONS
We recommend TVA’s Executive Vice President and Chief Administrative Officer,
Administrative Services, take actions to address the issues described in this
report and improve the FAP Program, including:

1. Determine the level of risk exposures TVA can accept from continued building
   deterioration and provide adequate program funding where possible.

2. Identify a process owner or cross-functional team to identify, manage, and
   mitigate underutilized properties according to CPP guidance, considering
   protective measures to reduce risk exposures, potential future uses, possible
   sale where feasible, or demolition if appropriate and no viable use is identified.

3. Improve FAP Program communication to better:

        Define and communicate FAP Program boundaries in particular to
         operations’ organizations.
        Update site representatives where projects are scheduled or ongoing to
         allow for adequate site planning.
        Coordinate with sites on individual projects for contractor oversight and
         resolution of post-installation issues.

4. Leverage or develop tools to centralize asset information, project planning and
   prioritization, facilities conditions, and lessons learned. Consider options to:

        Centralize condition assessment results, capture relevant information from
         other assessment initiatives like the historic structures survey, and update
         asset records either with assessment information or references to
         assessment results.
        Provide a method for asset owners and other appropriate personnel to
         provide condition information or self-assessments related to their sites.
        Document lessons learned in a repository for knowledge sharing.
        Enhance Projects Module functionality or other centrally accessed tools to
         improve processes for project requests and prioritization. Ensure project
         documentation is complete including actual dates and project notes in
         Projects Module.
        Implement data integrity checks for input and update processes such as
         requiring actual dates to be in the present or past, not the future.

5. Obtain the resources necessary to complete Tririga deployment and address
   weaknesses in the production database including the following steps to
   maximize accuracy and reliability and improve security:

Audit 2012-14567                                                               Page 14
Office of the Inspector General                                          Audit Report


        Correct data errors, complete data entry, and incorporate data from
         building and condition assessments.
        Add role-based access controls including a view-only role.
        Implement standard database security controls, including database
         auditing, with additional safeguards where needed.
        Request a vulnerability assessment and implement identified safeguards.

TVA MANAGEMENT’S COMMENTS AND OUR
EVALUATION
TVA management agreed with our findings and provided comments in response
to our draft report. TVA described plans to update funding proposals for the
current FAM program, address challenged properties as part of its Strategic Real
Estate Plan, and implement Tririga for managing TVA’s real estate portfolio.
See the Appendix for TVA’s complete response. The OIG concurs with TVA’s
plans, which are important for addressing some of the issues identified in our
report. However, in addition to these plans, actions are needed to fully address
concerns with program communication and use of tools to support the program.

With regard to our recommendation to improve program communication, TVA
management stated FAM personnel regularly meet with SBU executives and
operating unit leaders, have attended meetings with plant management to review
planned projects, and will continue to discuss project work as the year
progresses. While we agree this process is crucial to program and project
planning, we encourage additional steps to define and communicate program
boundaries, to outline both FM and site responsibilities for building maintenance
and repairs, and to coordinate upfront planning and oversight for projects being
initiated at the sites.

With regard to our recommendation to leverage or develop tools, TVA
management stated a second Tririga module is being developed as a repository
for building assessment information with a module go-live by early FY 2015.
TVA will also complete data and process mapping of existing portfolio information
during FY 2013. We agree Tririga deployment is crucial to FAM success, and
the planned mapping activities will support this process. However, we encourage
steps to leverage functions in other tools and to accomplish the Tririga
deployment at a date earlier than the 2-year plan described. Steps should be
taken to provide a method for asset owners to self-report condition updates and
project requests, which could be used to support program planning. Additional
steps should be taken to capture asset and program information currently
available from building assessments and lessons learned and to ensure
completeness and accuracy of project data being entered in the FM Projects
Module.



Audit 2012-14567                                                               Page 15
Office of the Inspector General                                          Audit Report


Finally, in response to our audit, TVA’s plans do not include specific tasks or a
timeline for completing corrective actions, which are designed to mitigate the
risks of failing infrastructure and improve program effectiveness. These tasks
and timeline are essential for effectively addressing our recommendations. The
tasks may be incorporated within FAM, the Strategic Real Estate Plan, or other
strategic efforts within FM responsibilities.




Audit 2012-14567                                                            Page 16
APPENDIX
Page 1 of 3
APPENDIX
Page 2 of 3
APPENDIX
Page 3 of 3
